<html>
<title> - H.R. 717, H.R. 745, H.R. 1207</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                        H.R. 717, H.R. 745, H.R. 1207
=============================================================================

                                    HEARING


                                   BEFORE THE


                        COMMITTEE ON VETERANS' AFFAIRS

                           HOUSE OF REPRESENTATIVES

                      SUBCOMMITTEE ON ECONOMIC OPPORTUNITY


                          one hundred ninth congress

                                 first session

                                    -------

                                  May 28, 2005

                                    -------

            Printed for the use of the Committee on Veterans' Affairs


                                Serial No. 109-10



                    U.S. GOVERNMENT PRINTING OFFICE
22-364                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

<TEXT NOT AVAILABLE IN TIFF FORMAT>



HEARING ON H.R. 717, H.R. 745, H.R. 1207

Wednesday, May 25, 2005


U.S. House of Representatives,     
Subcommittee on Economic Opportunity,
Committee on Veterans' Affairs,
Washington, D.C.

    The Subcommittee met, pursuant to notice, at 2:05 p.m., in Room 334, Cannon House Office Building, Hon. John Boozman [Chairman of the Subcommittee] presiding.
    Present:  Representatives Boozman and Herseth.

    Mr. Boozman. Good afternoon.  The Subcommittee will come to order.  Today we're receiving testimony on several bills affecting GI Bill education benefits.
    Our witnesses include members, government agencies and a diverse group of experts representing education and business interests.
    We all know the value of the GI Bill, and I'm not just talking about dollars and cents.  Its real value is in the opportunity to provide the veterans to gain skills and qualifications that will position them to succeed in life.  Is the benefit perfect?  No, but we are looking for ways to improve its effectiveness without incurring large costs.
    I hope that after CBO costs the bills before us today, we will be able to mark them up and take them to the floor without violating the budget resolution.
    Once again, I'm happy to have our Ranking Member here in a few seconds.  And as soon as she gets here, we'll go ahead and proceed and begin the testimony.

    [Pause.]
 
    Let's go ahead and take your testimony, Mr. Sodrel. We're pleased to have you here, especially in your capacity as a member of Congress and then also in your previous life as somebody that's very, very interested in and was a major part of the trucking industry.  So go ahead and proceed.


STATEMENT OF HON. MICHAEL E. SODREL, A REPRE-
    SENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA

    Mr. Sodrel. Thank you, Mr. Chairman.  It's my pleasure to be here.  I may not be unique, but probably rare, that a member of Congress served seven years in the Indiana Army National Guard and I still have a valid Class A Commercial Driver's License in my pocket with a P endorsement.
    I grew up in the business.  My family's been in transportation the last 145 years in various modes.  In my youth, you could get a -- what was then called a chauffeur's license at age 18 and there were certain exempt commodities that you could drive as a semi driver.  A lot of that generation of drivers were educated by riding around with their dad, their uncle, an older cousin, a relative, so they had -- it was more OJT than it was formal training.
    Since all drivers now have to be over 21 years old, veterans represent a pool of potential drivers for the industry and a pool of potential jobs for the veteran that's leaving the service.  And I believe that H.R. 717 would help precipitate that marriage, if you will, between the folks that need the jobs and the jobs that are available in the industry.
    Today, you cannot drive a truck commercially without formal training.  It's a different environment, different world both from the standpoint of just the way the insurance companies operate.  We've become a more litigious society. On-the-job training doesn't work very well.  So I'd like to see these drivers -- you know, right now we have a shortfall of about 20,000 truck drivers nationally.
    It was odd.  When I left the military, I had a military driver's license for trucks, but you cannot exchange a military license that you acquired in the service for a civilian license for the same vehicle.  They're entirely different standards.
    So a veteran, even if they spent their military career in transportation and they were actually driving a semi or an 80,000 pound tank retriever, delivering ammo tanker, whatever it was that they were driving, that military experience and that military license is not transferrable into a civilian license without the commensurate training.
    So I think this would be a good bill, very beneficial to veterans, beneficial to the trucking industry, and I'm happy to lend my support to it.  Thank you for the opportunity to be here today.
    Mr. Boozman. Thank you.  We're joined by our Ranking Member, Ms. Herseth.  Would you like to, once you get organized?
    Ms. Herseth. I apologize for being late.
    Mr. Boozman. None needed.  I've been around here long enough to understand how it works.
    Ms. Herseth. We have the Defense Authorization Bill up, and South Dakota is one of those states that I guess, in my humble opinion, has been treated unfairly in the BRAC process, so that's been what's occupying us mostly today.  But clearly it's important, as we deal with other bills that have been introduced, to gain a sense of the support among those that work with our nation's veterans, and what we're trying to do on the Subcommittee with Chairman Boozman, who's demonstrated just exceptional leadership with what we're trying to do and how we've newly structured the Subcommittee in our jurisdiction.  And so I want to thank the Chairman for his leadership and for waiting on me here a bit.
    I'm pleased to be here today as we receive your testimony and others on these three legislative measures before us.
    As I'm sure we all understand, the federal government's fiscal situation is not in good order and, consequently, makes our jobs here in Congress more difficult as we're forced to stretch limited funds over competing interests.  However, this isn't an excuse for bureaucratic inertia.
    Mr. Chairman, I'm pleased that this Subcommittee continues to review and seek comments on legislation that aims to invest in the economic security of our service members and veterans.
    I'm particularly interested in legislation that would provide greater flexibility and enhanced opportunities for our returning service members to acquire the skills and training necessary to compete in this 21st century labor market.  I'm confident that proper investment would yield great returns.
    I look forward to the testimony of our witnesses.  I apologize for missing yours, but I'm sure I'll have some questions for you regardless, based on your written testimony. I appreciate your guidance on crafting effective legislation. Thank you, Mr. Chairman.  I look forward to today's testimony and yield back.
    Mr. Boozman. Thank you.  Mr. Sodrel, so you actually drove a truck, then, while you were in the Guard?
    Mr. Sodrel. I did.  And I've driven a truck in civilian life as well on my way up.  Everybody starts at the bottom in my family.
    Mr. Boozman. So now, when you're in the Guard, you're driving, you know, you've got the responsibility of driving a big truck and doing as much as you did in civilian life.  So the license doesn't transfer?
    Mr. Sodrel. No, it does not.  I mean you go through specific training for a military vehicle of a given type and weight.  Your license -- and I assume things haven't changed a lot.  The military has a lot of inertia.  I left many years ago, but your license was for a small vehicle or a two-and-a-half ton or a five ton or larger or tank retriever or semi, but that license was not transferrable to a civilian license for a similar vehicle.
    Mr. Boozman. And then I guess likewise your experience wouldn't transfer.  If you'd had five years of driving and then got out of the military and then decided to go to work in the trucking industry, then your five years of experience wouldn't -- 
    Mr. Sodrel. That's kind of to the employer's discretion.  I mean some employer may look at that and say if this person has five years experience on this type vehicle and they have met the requirements for a civilian license, then I'm willing to give credit for some of that experience, but that would vary from employer to employer.  I'm not aware of any regulation or rule that says you must give or cannot give credit for the experience.
    Mr. Boozman. But it's not like flying or some of those things where you keep the log book where you can actually translate the experience and -- 
    Mr. Sodrel. No, it's not.
    Mr. Boozman. Very good.  Well, thank you for being here.  Ms. Herseth has some questions, but we really do appreciate it.  And again, I think you've got a very unique perspective in the sense of, you know, being in Congress now and also your background.  So we do appreciate your testimony.
    Mr. Sodrel. Thank you.
    Ms. Herseth. Congressman, my questions are going to be along the same line as this whole credit issue.  So given your insights, as the Chairman has reflected upon, we look forward to working with you and addressing precisely this issue and some of the disparities that have occurred to ensure that we're treating service members correctly in dealing with this credit issue in the most appropriate way possible, reaching out to you to offer your insights based on your experience.  
    Mr. Sodrel. I think what's really important here is that there are jobs available.  I mean this is not jobs that may be available or could be available.  These are existing jobs.  And as a veteran returns, if they're training, you know you can put them to work.  You know, it's not speculative but actual.  Thank you for the opportunity to be here today.
    Mr. Boozman. Thank you.  We have another member of Congress that will be drifting in, and we'll get to him when he comes.
    Mr. Michaud, a sponsor of H.R. 717 cannot be with us today.  He's submitting a statement which we'll enter into the record without objection.

    [No response.]

    Hearing none, so ordered.
    
    [The statement of Congressman Michaud appears on p. 26]
    Mr. Boozman. Our next panel is comprised of Mr. Jack McCoy, Director of the VA Education Service, who is accompanied by Mr. Dean Gallin, Deputy Assistant VA General Counsel and Mr. John Hill, Chief Safety Officer, Federal Motor Carrier Safety Administrative at the Department of Transportation.
    Mr. McCoy, if you would be kind enough to lead off for us.

STATEMENT OF JACK MCCOY, DIRECTOR, EDUCATION
    SERVICE VETERANS BENEFITS ADMINISTRATION; 
    DEAN GALLIN, DEPUTY ASSISTANT GENERAL COUN-
    SEL, DEPARTMENT OF VETERANS AFFAIRS; ALEXAN-
    DER KEENAN, DIRECTOR, NATIONAL TRAINING CEN-
    TER, FEDERAL MOTOR CARRIER SAFETY ADMINI-
    STRATION, DEPARTMENT OF TRANSPORTATION.

STATEMENT OF JACK MCCOY

    Mr. McCoy. Good afternoon, Mr. Chairman and members of the Subcommittee.  Thank you for inviting me here today to present the Administration's views on three bills that would affect Department of Veterans' Affairs programs providing veterans benefits and services.  Accompanying me today is Mr. Dean Gallin, Deputy Assistant General Counsel.
    Mr. Chairman, I will begin by addressing H.R. 717. Under current law, a Montgomery GI Bill student pursuing high cost courses leading to employment at a high technology occupation in a high technology industry has the option of receiving an accelerated benefit payment.  This optional lump sum accelerated benefit payment may cover up to 60 percent of the cost of such a course provided the pro-rated course costs exceed 200 percent of the applicable monthly Montgomery GI Bill rate.
    Mr. Chairman, this section of the bill would authorize accelerated payment only for one type of training program that does not lead to employment in a high technology industry, a commercial driver's license training program.  It is not clear to us why this would be done to the exclusion of other non-high technology, high cost programs.
    Thus, because we do not believe such piecemeal change to the current law is appropriate, we cannot support section one of H.R. 717.
    Section two of H.R. 717 would exclude educational assistance payments received under Chapter 30 Montgomery GI Bill program from consideration as income when determining the eligibility of a veteran to education grants or loans under other provisions of federal law.
    VA supports the concept of appropriately excluding VA educational benefits not only as income but also from consideration as available assets or other monetary resources for the purpose of determining eligibility for or the amount of student assistance under Title IV of the Higher Education Act.
    We strongly believe the determination needed for student financial assistance should not diminish the value of VA education benefits which are earned through service in our nation's armed forces.
    In our view, such provisions more appropriately should be included within the Higher Education Act. Accordingly, we look forward to discussing this approach with the Department of Education for consideration as part of the Administration's Higher Education Act re-authorization proposal.
    Mr. Chairman, the second bill under consideration today is H.R. 745, which would establish a five-year pilot project to test the feasibility and advisability of allowing the use of educational assistance benefits to pay for training costs associated with the purchase of a franchise enterprise. The measure provides for a lump-sum payment to the individual of the lesser of one-half of the franchise fees or one-third of the benefit amount corresponding to the individual's remaining entitlement.
    H.R. 745 would prohibit payment of educational assistance for franchise training unless appropriate training is required and provided in connection with the purchase and operation of a franchise.  While we recognize and acknowledge the pilot nature of the proposed project, we believe this measure merits further study and refinement.
    For example, as noted above, it would pay training costs equal to one-half of the franchise fees or one-third of the individual's remaining entitlement.
    However, this appears to assume that training costs generally comprise half of the franchise fee, yet, we have no evidence to this in the case.  Thus, a breakdown of the training costs portion of the franchise fee should be a requirement for approval.
    Since, as indicated above, we believe H.R. 745 needs substantial further study and consideration, VA cannot support the bill at this time.
    Mr. Chairman, the third and final bill under consideration today is H.R. 1207.  Section two would expand the term ``work-study activity'' for qualifying individuals to include (a) the provision of Chapter 31 placement services at an educational institution (under the supervision of VA employees); (b) the provision of counseling and assistance in identifying employment and training opportunities, as well as related information and services under the Transition Assistance Program and the Disabled Transition Assistance Program to members of the armed forces being separated from active duty and their spouses (under the supervision of a disabled veterans' outreach program specialist or local veterans' employment representative); and (c) any activity approved by VA in support of Senior Reserve Officers' Training Corps programs at an educational institution or military installation.
    With regard to the use of work-study students at educational institutions to provide placement service to disabled veterans, we believe it is unrealistic to expect students to provide these highly specialized counseling services currently being provided by GS-12 federal employees.
    With regard to the work-study students assisting with the Transition Assistance Program and Disabled Transition Assistance Program, we agree with the intent of this provision, but are concerned with some of the functions the student would be expected to perform.
    We would, therefore, suggest deleting reference to such functions and, instead, permit the work-study student to assist with the Transition Assistance Program and Disabled Transition Assistance Programs in ways consistent with their abilities.  VA does not believe the students need to be supervised solely by Department of Labor employees.  We believe in many cases that VA, DoD or contractor personnel would be appropriate supervisors as well.
    Finally, with regard to using work-study students to support Senior ROTC programs at educational institutions and military installation, VA supports this portion of section two.
    Section three of H.R. 1207 would direct VA, subject to regulations VA would prescribe, to conduct a five-year pilot program to test the feasibility and advisability of expanding the scope of qualifying work-study activities to include work-study positions available on site at educational institutions.
    VA supports the intent of the pilot program envisioned in section three.  However, we are strongly opposed to some of the administrative restrictions found in the pilot program.  For instance, we are opposed to requiring an applicant to demonstrate that no other (non-pilot) qualifying work-study position exists during the applicable agreement period.  This requirement imposes an unreasonable verification burden on applicants.
    Overall, we suggest that the pilot program have vastly fewer restrictions.  We note that the five-year temporary positions already approved for work-study allowances do not have such burdensome restrictions.
    Mr. Chairman, this concludes my prepared statement. I would be pleased to answer any questions you or any of the other members of the Subcommittee have.  Thank you.

    [The statement of Mr. McCoy appears on p. 32]

    Mr. Boozman. Thank you.
    Mr. Keenan, I apologize.  We had your counterpart down.  So again, like I said, we're pleased that you're here to represent DOT.  You're recognized.

STATEMENT OF ALEXANDER KEENAN

    Mr. Keenan. Mr. Hill could not be here.  I'm Alexander Keenan, Director of the National Training Center for the Federal Motor Carrier Safety Administration.  I do not have a prepared statement today.
    I would like to thank the Chairman for the invite and praise the Committee for its support of veterans.  Having spent 28 years wearing the military uniform and retiring at the rank of Command Master Chief, I'm very supportive of the GI Bill, having been a user of the GI Bill for over 14 years of night school.
    I'm also a special editor for The Navy Times retirement section, their bi-weekly newspaper, which really gives me a lot of opportunities to work with veterans, retirees, and talk about issues with the GI Bill.
    Today I'm here to represent the Federal Motor Carrier Safety Administration on the national training center as the director, but here to answer any questions the Chairman or the Committee might have.
    Mr. Boozman. Thank you.  On your comments on limiting the accelerated to truck driving schools, you question whether truck driving schools met the Title 38's high tech requirement.  Can you describe the types of training approved under the VA regulations for accelerated payment?
    Mr. McCoy. Just to name a few, computer specialist, math specialist, engineers, life and physical sciences, just to name a few.
    Mr. Boozman. Given that today's veteran is often supporting a family and may not be able to perhaps -- be inclined to or be able to pursue a four-year degree, would you agree that some of the restrictions under today's laws and regulations hamper the use of the GI Bill?
    Mr. McCoy. No, sir, I don't.
    Mr. Boozman. Okay.  I guess the -- Mr. Sodrel, in his testimony, testified that the jobs were there as far as the trucking industry.  I think that the same is true as far as maybe the railroad industry, things like that.  Is the GI Bill, as it's written now with the regulations, is it conducive to those individuals getting the training that they need to get into those jobs?
    Mr. McCoy. I would say to the extent that someone is entitled, for example, to the Montgomery GI Bill and whatever their training time might be, they would be entitled to that.  You know, we have a number -- dozens of truck driving schools now that veterans go to and get paid.  Of course, if it was under this regulation, obviously they would get more of a lump-sum payment up front obviously.
Mr. Boozman. Ms. Herseth.
    Ms. Herseth. Just to continue along this line, in your testimony you state that the VA doesn't support section one of H.R. 717 because the need is not clear, and you don't believe �piecemeal change to the current law is appropriate.�
    I guess my response there is to be disappointed in perhaps the lack of creativity and the need for flexibility here.  Individuals earn and learn in many different ways now, and the VA shouldn't be stuck in the past or operate under the false impression that all veterans want to use their earned GI Bill benefits by attending a traditional four-year college.
    So to clarify, Mr. McCoy, does the VA not support expanding the accelerated benefit payment as described in section one of H.R. 717 because it limits the expansion to CDL schools only, or does VA not support expansion of the benefit generally?
    Mr. McCoy. I would say that it's more to the point of one business, and if we're going to do this, then why wouldn't we be looking at other types of training also.  So not just to say no, it's just truck driving.
    Ms. Herseth. Okay.  Do you know how many veterans are currently taking advantage of the GI bill benefits to attend truck driving school or to obtain the CDL certification courses?
    Mr. McCoy. I would say right now approximately -- it's approximately 300.
    Ms. Herseth. So it's not so much a fiscal issue then?
    Mr. McCoy. No, ma'am.  I -- 
    Ms. Herseth. You just think it should be broader. It shouldn't be categorizing them one at a time.
    Mr. McCoy. And I guess that's my point in the testimony.  If we're going to do this, why is it only this one training issue and not others?
    Ms. Herseth. So given what we've done for the area of high tech employment, you're just saying we should expand -- we could expand the category to include CDL certification?
    Mr. McCoy. We would be glad to look at that if that were the case, yes.  If we got legislation or, you know, to expand it.  But again, I don't understand why we would only expand it for one, but we would be glad to look at it.
    Ms. Herseth. Thank you.
    Mr. Boozman. I guess I would like, you know, some input as to that and maybe to some others that we need to be looking at, but the most obvious thing is the expense.  This will cost the government more money to do this. I guess my reasoning in supporting or tending to support the bill, that's what this is all about is to get the testimony so we can decide what -- but my inclination in tending to support it was that this would be a good start to try and look at maybe expanding the GI Bill in a different way.  Again, realizing that this area, and there's probably two or three others that there truly is a ready market for jobs out there that because of the nature of getting back, you know, not having the funds maybe to pursue the education, that you just can't get into it.
    But like I said, I think that's the biggest thing is the funds.  I would really like -- you know, I would welcome -- I know that all of the Committee would welcome other areas that we need to be looking at as far as trying to expand it.
    Would you describe the DOT requirements for commercial driver's license.  And does DOT require any sort of experience verification to qualify for any type of licenses?
    Mr. Keenan. Mr. Chairman, I might need to defer to some assistance here.  The definition the commercial motor vehicle used, the proposed bill for eligible training refers to 49 U.S. Code 3130.  The definition used for the CDL program, the passage of this bill would have no effect on the current CDL program.
    The Department of Transportation does not have a regulatory authority over commercial driver training schools nor does it accredit any commercial driver training curriculum.
    DOT, through our agency, Federal Motor Carrier Safety Administration, administers the program as created by the Commercial Motor Vehicle Safety Act of 1986.
    The Act's goal was to improve highway safety by ensuring that drivers of large trucks and buses are qualified to operate these vehicles through standardized testing.
    Our Agency sets the minimum driver's testing standards for the CDL program to promote uniformity in drivers' training.  States administer the knowledge of the written test based upon our standards, federal testing standards.
    While the department supports modeled driving training curriculum as a means of providing uniform driver training, the school and the driver curriculum oversights is really the jurisdictions of the state's regional, national accredited organizations.
    Mr. Boozman. Ms. Herseth?

[No response]
 
    Thank you all very much for sharing your testimony. And again, Mr. McCoy, we really would be interested in working with you as far as getting your ideas, getting your perspectives about other avenues that maybe are out there that fall into this category and perhaps expanding this.
    Mr. McCoy. Be glad to.  Thank you.
    Mr. Boozman. Thank you very much.

[Pause.]

    Mr. Boozman. We're really pleased to have with us Mike Simpson.  He's going to testify about his bill, 1207. And it really is good to have you back here, Mike, and share your expertise.
    Mr. Simpson. Thank you, Mr. Chairman.
    Mr. Boozman. Thank you.

STATEMENT OF MICHAEL K. SIMPSON

    Mr. Simpson. It's always nice to be back here.  I served four years here and was Chairman of what was then the Benefits Subcommittee and enjoyed it and the staff work here greatly.
    I apologize for being a little late.  We had a markup and, you know, you just can't get out of those.
    Chairman Boozman, Ranking Member Herseth, it's good to be with you today.  I appreciate the opportunity to appear before your Subcommittee to discuss the bill H.R. 1207, the Department of Veterans' Affairs Work-Study Act of 2005, which will expand the work-study opportunities for veteran-students.
    Mr. Chairman, the work-study program provides veteran-students an opportunity to earn additional funds each semester while gaining valuable work experience.  Current law authorizes a work-study program for any student receiving a VA education or vocational rehabilitation benefits; however, the current restrictions for ``acceptable'' work-study services are too limiting.
    Under current law, the veteran-student may only perform services in support of veterans programs at VA regional offices, medical centers or national cemeteries or college and university veterans' affairs offices or by conducting outreach services under the supervision of a VA employee or a state approving agency. These limiting parameters for acceptable work-study services restrict the number of positions available to eligible veterans and keep veterans from having the opportunity to earn supplemental financial assistance while gaining valuable work experience. Limited work-study opportunities are particularly true at campuses not located near VA facilities.
    The VA Work-Study Act would expand the work-study opportunities to include vocational rehabilitation program employment services at an educational institution, Transition Assistance Program and Disabled Transition Assistance Program counseling, training and employment services under the supervision of Disabled Veterans Outreach Program Specialist and Local Veterans Employment Representatives, or services in support of ROTC programs at educational institutions or military installations.  Expansion of the VA work-study program complements the intent of previous legislation I introduced, Public Law 107-288, the Jobs for Veterans Act of 2002.  Like the Jobs for Veterans Act, this bill would enhance a veteran's opportunity for job placement following college.
    This bill also creates a 5-year pilot program to test expanding the scope of the acceptable work-study services a step further.  In the pilot program, veterans would be afforded more opportunities for work-study positions at the institution of higher learning where they are pursuing their degree programs. Employment positions in academic departments and in student services would be eligible, subject to the approval of the Secretary of Veterans Affairs.
    While I have the table, Mr. Chairman, I'd like to introduce a constituent of mine that's over here that will be testifying on the third panel, Mr. Dave Guzman.  Dave is a legislative director for the National Association of Veterans Programs Administrators, and I've been working closely with him on this legislation, and it's been a pleasure to work with Dave, and I look forward to his testimony.
    As, I said, Mr. Chairman, this would expand work-study opportunities for veteran-students and enhance the veteran's opportunity for job placement following college.  I appreciate the opportunity to testified before the Committee and your consideration of this legislation.

    [The statement of Mr. Simpson appears on p. 40]
 
    Mr. Boozman. Thank you very much for being here. As someone -- when I was in optometry school I was on work-study and was a janitor.  And some of my constituents might feel like that's probably an appropriate place for me now.  But it really was, it was something that was very, very valuable to my wife and I and really did make the difference in really being able to count on.
    So, Ms. Herseth?
    Ms. Herseth. Thank you for your insights and testimony in support of the bill that you've introduced.  Just prior to your testimony we heard from some of the representatives with us today from the VA and the concern was expressed that perhaps when you're dealing with programs, the Transitional Assistance Programs for our disabled veterans, that it's possible that some of the students wouldn't have the skill set necessary to provide that type of assistance or at least that the placement shepherding the veteran who may qualify through that program in the placement services, and suggested perhaps a change to the language that would have something consistent with the abilities of the student, that they would be able to provide certain services.  Do you have any thoughts or comments on that concern expressed by the VA and how this might put a student in a position where they couldn't work as effectively as someone employed with a GS-12 rating, I think was referred to?
    Mr. Simpson. I certainly would not want to put any veteran in a position of a job for work-study program that they couldn't handle, and they should not be placed in that position.  So certainly that would depend on the individual that you're placing.
    Secondly, I'm always open to suggestions from Veterans' Administration on how we can improve the language on this and make it a work-study program available to more students so that they have the ability to earn some money while they're going to college.
    Ms. Herseth. I don't have any other questions.  I was a work-study student too.  And the more flexibility and type of experience we can offer students, whether they're returning veterans, especially if they're returning veterans. And as we were talking about with another bill, the flexibility needed here to meet the needs, because some of our returning veterans could very well have a skill set that goes above and beyond perhaps what a typical 18 or 19 year old would bring to the table who would qualify.  So I appreciate the aim and the objective of your bill today.  Thank you.
    Mr. Simpson. Thank you.  Thank you, Mr. Chairman.
    Mr. Boozman. Thank you for being here.
    Our third panel includes representatives from private industry and organizations responsible for overseeing the daily operations of the GI Bill.  We are pleased to welcome Mr. Matthew Shay from the International Franchise Association, Mr. Ray Kuntz from the American Trucking Association, Mr. Jim Bombard from the National Association of State Approving Agencies, and Mr. David Guzman from the National Association of Veterans Program Administrators.
    For those not familiar with these state approving agencies, they are the organizations that actually certify education and training programs as eligible for VA GI Bill benefits.
    The Veterans Program Administrators are employees of education and training entities whose job it is to verify veterans enrollment and generally keep the paper moving between the school and the VA.
    Welcome to Subcommittee.  Let's begin with Mr. Shay.

STATEMENT OF MATTHEW R. SHAY, PRESIDENT, INTER-
    NATIONAL FRANCHISE ASSOCIATION; RAY KUNTZ, 
    VICE CHAIRMAN, AMERICAN TRUCKING ASSOCIA-
    TION; JIM BOMBARD, DIRECTOR, PUBLIC RELATIONS,
    NATIONAL ASSOCIATION OF STATE APPROVING AGEN-
    CIES; DAVID GUZMAN, LEGISLATIVE DIRECTOR, 
    NATIONAL ASSOCIATION OF VETERANS PROGRAM 
    ADMINISTRATORS.

STATEMENT OF MATTHEW R. SHAY

    Mr. Shay. Mr. Chairman, thank you and the Ranking Member, Ms. Herseth.  We appreciate the opportunity to be with you today.
    My name is Matthew Shay.  I'm President of the International Franchise Association.  Since 1960, the IFA  has served as the voice of the franchise community here in the United States and around the world.  Today we represent more than 1,000 franchisor members, approximately 8,000 franchisee and several hundred supplier members.  And we certainly appreciate your taking the time to hold this hearing today. We thank you and your staff for your work on the bill and also thank Mr. Baker and his staff for listening to our concerns and the concerns of the franchise community and of the veterans community while producing this legislation.
    We think this is a very appropriate conversation to be taking place in the Economic Opportunity Subcommittee.  We think franchising in many ways is equivalent to economic opportunity, as it provides individuals with an opportunity to get into business for themselves but not by themselves.  And we think that the Veterans Self-Employment Act will provide just that kind of an opportunity.
    Let me just give you a quick overview of the franchise community here in the United States.  Last year our educational foundation conducted an economic impact study of franchising, and determined there are nearly 800,000 franchise establishments operating in the United States.  They employ more than 18 million Americans and generate more than one-and-a-half trillion dollars in total economic output.  And to put that in perspective, that is approximately 14 percent of the private sector labor force and nearly 10 percent of the total private sector economic output.  And just to bring it home with a little more detail, Mr. Chairman, in your district there are more than 2400 franchised establishments that create nearly 40,000 jobs.  And in the Ranking Member's home state, there are approximately 2500 franchise businesses that create nearly 55,000 jobs.
    We think one of the most wonderful features of franchising is its broad diversity.  There are more than 75 different industries that are involved in franchising, and we are not newcomers to the concept that veterans can make wonderful franchisees.  In many ways they are ideal candidates because of the skills they've learned while in the military. They include teamwork and a mission oriented focus, and those apply very nicely and very directly to the operation of a franchise business.
    For all those reasons, we endorse the Veterans Self-Employment Act because it would provide an opportunity for veterans to apply a portion of their benefits to the initial franchise fee, specifically to the costs of the training associated with becoming involved with a franchise. And as to several of the concerns that were raised by the VA, we think we can very easily work with those.  It would not be difficult for our members to make a determination with the high level of specificity about the portion of the franchise fee that is devoted to training costs.  We could do that I think fairly easily.  And we also think that with regard to the issue raised in the VA's testimony about the election of benefits and either choosing one or the other opportunity to offset some of the training costs for the franchise fee, that would be certainly acceptable to us as well.
    So with those initial comments, Mr. Chairman, Ms. Herseth, we certainly appreciate the opportunity and thank you for giving us this time with you.

    [The statement of Mr. Shay appears on p. 42]
 
    Mr. Boozman. Mr. Kuntz.

STATEMENT OF RAY KUNTZ

    Mr. Kuntz. Good afternoon, Chairman Boozman and ranking chairwoman Herseth.  My name is Ray Kuntz.  I'm Vice Chairman of the American Trucking Association and I'm the CEO of Watkins and Shepard Trucking, based in Montana.
    I appreciate the opportunity to appear before the Subcommittee on behalf of ATA to voice our support of H.R. 717, particularly as it relates to training our country's veterans to drive commercial trucks.  I believe I have a unique perspective on the issue because I not only run a trucking company but I also run a truck driver training school.  I also chair a joint ATA Truckload Carriers Association working group on the driver shortage and driver training issues.
    American Trucking Association is the national trade association for the trucking industry.  It's a federation of affiliated state trucking associations, conferences and organizations that include 38,000 motor carrier members representing every type of class of motor carrier in the country.
    The trucking industry is a $671 billion industry comprised of 3.24 million commercial vehicle drivers.  Our nation's economy and business rely heavily on trucks for the transport of goods because no other form of delivery can bring goods door to door regardless of whether such goods have traveled by plane, ship or train.  Trucks carry nearly all freight in some point in their journey from producer to consumer.
    A significant segment of the trucking industry is facing a serious shortfall of qualified long-haul truck drivers.  According to an in-depth study being released today by ATA, there is currently a shortage in this country of approximately 20,000 long-haul truck load drivers.
    The study projects a widening imbalance in the potential supply and the demand for long-haul truck drivers during the next 10 years.  According to its analysis, the current driver shortfall of 20,000 in the absence of substantial market adjustments could rise to a shortfall of 111,000 by the year 2014.
    There are a number of factors involved in the driver shortage issue.  Stringent government regulations, insurance carriers standards, and standards of the trucking company themselves all restrict availability of qualified drivers to commercial vehicle industry.
    Another critical contributing factor to the driver shortage situation is lack of available funding for students who would like a career in professional truck driving.  The national average tuition to attend a truck driver training school for an average of two to four months is $4,000 plus the cost to live while you're in the school.
    Driver training is essential and must be taught by a reputable truck driver training school in order for a driver to obtain the knowledge and the skills to successfully pass both the written and the road testing requirements of the commercial drivers' licensing known as the CDL test.  A company will not hire a driver without a valid state issued CDL.
    Veterans, if they choose, under the Chapter 30 of the Montgomery GI Bill, can use their educational benefits to attend a Veterans Administration approved truck driving school.  The maximum tuition benefit a veteran can receive per month is only $1,004.  On average, truck driving school tuition costs $4,000.  And since most truck driving training schools average two months in duration, the veteran will likely have completed his or her training before the school receives the majority of the tuition reimbursement under the current GI Bill tuition payment system, which means that the school has to foot the bill or the receivable while that student is in school.  Since the schools do not control disbursement of the payments, when or whether the remaining tuition fees will get paid creates concern among all parties involved.
    H.R. 717, if enacted, would go a long way towards fixing this particular funding problem.  By applying accelerated payment program to truck driver training schools, 60 percent of the students' veteran driver tuition may be paid in advance to the veteran and to the school covering his or her tuition expenses.  The other 40 percent could come from a variety of sources, including low interest loans and carrier subsidies.
    Under H.R. 717, additional funding avenues would potentially be open to veterans by excluding their GI benefits from eligibility determination for other federal financial education grants or loans.
    If this bill is enacted, qualified veterans who wish to pursue a professional career in commercial truck driving could do so at little or no cost to them.  In as little as two or three months upon the completion of a truck driver training and by successfully passing a commercial driver's license test, a veteran can be gainfully employed as a long-haul truck driver with a high quality trucking company making entry level salary averaging about $40,000 a year.  And I add that I know of no other industry with a two-month investment or roughly, what -- we're talking $2400, that can take a veteran and put him in that kind of a salary and the contribution back to the government as far as taxes will cover that in a very short period of time.
    Why does the trucking industry need and try to actively recruit veterans?  The answer is simple.  Former military personnel make the best students and have a higher training graduation rate than their civilian counterparts. From the trucking company's perspective, veterans have a reputation of being outstanding employees.  Their military training and background lends itself to leadership, respect for procedures, integrity and teamwork, ideal characteristics sought by all employers but vital to the success of a professional commercial truck driver.
    For veterans as military occupation specialty or MOS involved heavy truck driving, commercial truck driving may be a national career path.  Although a military license does not automatically convert to a CDL in most U.S. states, the skills gained driving trucks in the military are certainly at a great value when applying them during the civilian truck driver training.
    In closing, Mr. Chairman, I would like to reiterate ATA's support of H.R. 717 and urge the Subcommittee to move the bill forward.  This concludes my remarks, and I would be happy to answer any questions that you have at the appropriate time.  Thank you.

    [The statement of Mr. Kuntz appears on p. 52]
 
    Mr. Boozman. Thank you.
    Mr. Bombard.

STATEMENT OF JIM BOMBARD

    Mr. Bombard. Chairman Boozman, Ranking Member Herseth and members of the Subcommittee on Economic Opportunity, I am pleased to appear before you today on behalf of the National Association of State Approving Agencies to provide comments on H.R. 717, H.R. 745 and H.R. 1207.
    I should mention at the outset that I am also the Vice Chair of the Legislative Committee of the Association and have had the pleasure of working with the members and the staff of the Committee for many years as the Committee has worked to improve the various GI Bills.
    The Association is pleased to support the provisions that are presented in the three bills.  In general, much has been done in recent years to provide service members, veterans and other eligible persons with greater opportunities to use the education and training benefits for which they are entitled.
    Yet, the nature of the today's global economy demands that we continue to strive to help our workforce, especially our veterans, to gain new knowledge and learn new skills in order to maximize their contributions to the Nation. The provisions of H.R. 717, H.R. 745 and H.R. 1207 provide either directly or indirectly for these kinds of learning opportunities.
    H.R. 717 expands the accelerated payment provision of law to allow veterans to obtain the kind of financial support necessary for enrollment in commercial driver license training programs.  Nationally, truck driving programs are relatively expensive because of the complexities of the today's equipment, the demands of new licensing requirements for specialized loads.  Program cost can reach as high as $6,000 or $7,000 for a 12 week instruction.  An opportunity to use the accelerated payment provision of law would allow more veterans to pursue their chosen occupation.
    The Association supports H.R. 717 section 2, exclusion of benefit payments under the Montgomery GI Bill from income for eligibility determinations for federal education loans.
    GI Bill benefits are intended to be an earned benefit to which all who serve in the armed forces of our nation are eligible.  Moreover, it has always been the intent of the Congress that the GI Bill be the premier program in our nation to help our citizens to further their education and training.  Inclusion of GI Bill benefits in any formula for determining eligibility for other federal educational assistance is not consistent with these goals nor the sacrifices made by those who protect the freedoms that we all so thoroughly enjoy.
    H.R. 745 provides for the creation of a pilot program for veterans to use their VA educational assistance benefits for training associated with the ownership of a franchise, opportunities for veterans to obtain gainful employment in a field of their choosing.  The risks associated with this pilot would be few since the rules pertaining to the approval of the programs are almost identical to those currently required for non-accredited, non-degree programs of education and training.
    Additionally, most state laws would, as they do now, require a review of the organization offering the training for state licensing purposes.  Thus, there is little to no risk by fly by night training.
    H.R. 1207 provides a much needed expansion of the kinds of services in which the VA work-study students may be engaged. The first part of the bill allows VA students to assist veterans and their spouses as they work to achieve their education and training and employment goals.  In our view, this is an excellent use of VA work-study funds.
    The second part of the bill is a pilot program that expands the program of work in which VA students can be involved while they are enrolled at an educational institutions.  We believe that this expansion is appropriate as the cost of higher education escalates at a much faster pace than VA educational assistance benefits have risen because of budgetary constraints.
    The pilot program also has sufficient limitations to ensure that it will not be abused by an overly ambitious post-secondary educational institution with an eye on cutting its overhead costs and increasing its profit margin.
    In closing, Mr. Chairman, I would like to thank you for the opportunity to comment on the three bills.  Thank you also for your efforts to make improvements to the education and training assistance programs that have been made available to those who defend the freedoms that we all so thoroughly enjoy.  As stated earlier, we support the provisions of the bills at this time, and I would be happy to respond to any questions that you have.

    [The statement of Mr. Bombard appears on p. 61]
 
    Mr. Boozman. Thank you.
    Mr. Guzman.

STATEMENT OF DAVID GUZMAN

    Mr. Guzman. Good afternoon Mr. Chairman, members of the House Committee on Veterans Affairs, Sub-Committee on Economic Opportunity.
    I am David Guzman, Legislative Director for the National Association of Veterans Program Administrators.  And with me today is Faith DesLauriers, Chair of the NAVPA Legislative Committee.  We appreciate this opportunity to address you today on veterans' educational issues.
    Our membership consists of concerned and dedicated veterans program administrators at the business end of the GI Bill, the college and universities across this great land of ours.  The Montgomery GI Bill and GI bills before have intended to serve as recruiting and readjustment tools for those who served our country honorably, and we are proud to be a part of the process that serves these dedicated and most deserving Americans.
    H.R. 1207 intends to correct some deficiencies in the VA work-study law by removing some of the restrictions that limit veteran students' ability to work at colleges and universities outside of the Office of Veterans Affairs.  I conducted a quick survey on our association's website just two days ago and received replies that indicated there is a genuine desire within the academic departments at the colleges and universities for the valued military experience, maturity and work ethic our veterans bring to the workforce.  And there is a desire on the part of the veterans to gain hands-on instruction in their academic major while supplementing their GI Bill.  Especially at rural colleges, such as Washington State University where I worked in Pullman, Washington, or at the University of Idaho in Moscow, Idaho, and other rural colleges across America where outside work opportunities are limited or at locations at Uba Community College in Arizona where unemployment is high.
    Additionally, veteran work-study are needed at Humbolt State University in California where they administer one of the largest veterans upward bound programs in the nation and at large colleges where the veteran student population is larger.
    This work-study program helps the Office of Veterans Affairs that has not received an increase in VA funding for processing education claims since 1976.  Expansion of the VA work-study program would complement the Jobs for Veterans Act under PL 107-288 that Mr. Simpson talked about.  It would enhance the veterans' opportunity for job placement following graduation and complete the readjustment process.
    NAVPA urges this Committee to recommend adoption of this bill that would allow veterans the opportunity to work in the college and university Office of Veterans Affairs or administrative or academic departments at the degree granting institution in which the student is pursuing his or her academic credentials.
    Expanding work-study opportunity for veterans would cost very little.  In fact, the payback in earnings for the veteran would return seven or more times the investment as proven by the GI Bills of past eras given the expanded knowledge and leg up for employment in their new discipline following graduation.
    With regard to H. R. 717, to expand the scope of programs of education for which accelerated payments of educational assistance and to exclude benefits payments under the MGIB from income, and we would like to include "or as a resource for purposes of determining eligibility for education grants or loans under any other provision of law."
    The federal methodology used to calculate need for student financial assistance requires institutions to take into account all forms of assistance received by the student to help pay educational costs. The Montgomery GI Bill benefit is considered in the needs assessment as income and, thus, deducted from the total financial award or cost of attendance dollar-for-dollar.
    Additionally, not all considered in this formula is the initial $1,200 pay reduction service members had withheld from their basic pay to enroll in the Montgomery GI Bill at the onset of their initial service tour, nor is there any consideration given for the years of military service, personal sacrifices, family separations, irregular duty hours and conditions, for the protections and freedoms afforded this nation.
    The Montgomery GI Bill is not like other resources. It is an earned benefit, one that we believe our nation owes the men and women who serve this county for putting their personal aspirations on hold to protect and defend our freedoms and one that should not be dismissed by a standard formula that does not consider these sacrifices. These men and women should be afforded the opportunity to make readjustment, earn an education or otherwise train for gainful employment without further sacrifice.  With regard to the truck training, there's a saying, if you have it, a trucker brought it.
    NAVPA fully supports the proposed legislation in H. R. 745, Veterans Self-Employment Act of 2005, that will allow veterans more opportunity to use their veterans' educational benefits to better their opportunities in the world of work. We recognize that veterans mirror the American society and that not all veterans will pursue a college degree. Therefore, expansion of the Montgomery GI Bill, as provided for in these bills, makes good sense and further enhances the readjustment concept and speaks highly of the value we, as Americans, place on those who serve in our military services.
    This concludes my remarks, sir.

    [The statement of Mr. Guzman appears on p. 66]
 
    Mr. Boozman. Thank you very much.  I think the -- you know, -- in this Committee we talk about jobs and certainly you all represent jobs.  And I was surprised at the amount of franchisees jobs represented in Arkansas and South Dakota.  That's pretty amazing.
    Mr. Shay. We're happy to surprise you, Mr. Chairman.
    Mr. Boozman. Very much.  Mr. Kuntz, your statistics are good.  I think all of us felt like there's a crisis looming.  I know on-time delivery, pulling something off the shelf and then that going to a central distribution center through a computer and then the truck instead of sending 100 boxes of tissue only sends what you need.  I think in Arkansas they're estimating that the amount of truck traffic by 2020 will be 60 percent greater.  And so if you're having the trouble with the drivers, that's not very long off. If you're having driver troubles now, I think if anything your protections maybe short-sighted because the trend is going to be more and more that way.
    I think Ms. Herseth really said it best a while ago. What we're looking for is some flexibility in the system. How does the --  Mr. Kuntz, how does the VA's list of occupations eligible for accelerated payment compare to today's job market in your way of thinking?  Would you describe the technical side of a trucker's education?
    Mr. Kuntz. Well, the second part of that first. The driver today I think the general public doesn't understand that he has a computer in his truck.  He has to be able to operate the computer.  We're sending him directions and messages and communicating back and forth all by a computer. And the truck itself is a pretty technical instrument compared to what people realize guys were driving 20 or 30 years ago.
    As far as -- I was a little surprised when I compared what the VA is considering as a high growth or jobs what the applied the accelerated payment.  I was fortunate to take part in the President's high growth job training initiative.  And when I got the material, they had set 12 sections aside as industries with high growth opportunities. In these 12 sections, they projected they add substantial numbers of new jobs to the economy or affect growth of other industries.  They are existing or emerging businesses being transformed by technology and innovation requiring new skills for workers.
    What was interesting, I reviewed the VA's jobs that qualified and then I reviewed the 12 that the President's high growth initiative identified, and at least from my understanding only three of the 12 identified would quality under advance, and transportation as listed as one of those 12.  What that tells me is that the VA definitely needs a little flexibility and maybe to update what they're looking at compared with the reality of where the jobs are today.
    Mr. Boozman. One of the criticisms of looking at as far as the truck driving aspect of this is that we're piecemealing it, you know, just kind of selecting jobs.  Do you all -- and again, I think the reason that we're looking at that in the sense is that we do have some cost -- things we're trying to work with it.  And then too, it gives us an opportunity the kind of start in that direction and see what happens.
    But Mr. Bombard, Mr. Guzman, do you all, off the top, can you recommend any other things that we need to be looking at?  I know the railroad industry, that aspect of transportation is also undergoing the same sort of thing.  Have you got any other suggestions as far as places that you can see with training programs that we need to look at maybe expanding, doing the same thing?
    Mr. Bombard. Well, you know if it was a perfect world and we had enough money, it would be better to just allow the veteran to use the benefit as he sees fit and to have it accelerated.  I mean the high cost of traditional education also lends itself to the fact that a veteran may be in a circumstance where the veteran needs the money up front rather than at a later date.
    Realizing that this isn't a perfect world, I think it would behoove both the Congress and the VA and all concerned to look at the various industries and areas where high tech can be redefined to serve the veteran, the community and to provide job opportunities in the short-term thru the use of the accelerated payment provisions.
    In general, as I said, I would prefer to see it carte blanche.  As Chairman of the Secretary's Advisory Committee on Education, one of our recommendations to Secretary Prinicipi was that the accelerated payment restrictions be removed.  The VA took exception to citing cost as the deciding factor.  I think a further study needs to be done.  And I think we need to move forward in other areas with regard to accelerated payment.
    Mr. Guzman. I agree with my colleague, Mr. Bombard. I also agree with what you said, sir, and that is it's a good start.  I think that we have to start someplace, and we did when we did high cost, high tech.  So this is the next step. Although it may look like we're piecemealing, I think we have to be realistic and look at what we can afford at this time as well.
    So given what Mr. Bombard said about looking at other areas, that could be the next step down the road.
    Mr. Boozman. Ms. Herseth.
    Ms. Herseth. Thank you, Mr. Chairman.  Thanks to each of you for your testimony today.  I do have a couple of questions, but as each of you have addressed the three bills that we are discussing that our colleagues have introduced, we do appreciate you taking the time.  I wish I had kept my pin on from yesterday when my South Dakota Trucking Association folks were here and gave me the pin that says �Good Stuff. Trucks Bring It.�  So I think that it's important -- 
    Mr. Kuntz. We can get you one.
    Ms. Herseth. I just didn't wear it today.  But let's talk a little bit about H.R. 717 in particular just to continue the line of questioning of the Chairman.
    I think, Mr. Kuntz, you had said if we had the accelerated benefits here for the CDL courses which roughly are two to four months, the veteran could pay 60 percent up front for the tuition roughly, right, and then the remaining 40 percent of the tuition could be financed by low interest loans or carrier subsidies.  Now when you say ``carrier subsidies,'' are you talking about the trucking companies themselves?
    Mr. Kuntz. Right.
    Ms. Herseth. Do they already have an established program for others to help them pay for the certification courses that are required that helps pay for that tuition for non-veteran truck drivers?
    Mr. Kuntz. Because of the extreme driver shortage, many carriers, ourself included, will subsidize part of the school in order to help a potential driver, both veteran and non-veteran, bridge the gap.  And then the problem that we get into, especially as a trucking company school I can do that. But a private school where most of the truck drivers are trained can't afford to bridge that gap.
    So especially with the GI Bill, what happens now is the driver comes to the school and he wants to apply and use his GI Bill and he gets the $1,004 a month.  And if the school only takes six weeks, that only like $1,400 towards that entire cost.  So it's not adequate.  And if he's a veteran who has good credit, they try to bridge that gap with some kind of financing.
    The thing to remember is that a lot of veterans -- I think people think that the veteran that's coming to us is the guy that's coming straight out of the service and coming to our school.  The reality, and unfortunate in some cases, we get that veteran four, five, six, seven years and maybe after even one, two or three failed other attempts at other careers. And he looks and says, you know, I can make $40,000 driving a truck.  This is a chance to get me out of this financial hole and move on with my life, which it is.
    Unfortunately, by that time his credit is also no good, the VA funding doesn't allow him to go to school, and we can't get him credit approved.  And so in most cases the private truck driving school ends up turning that gentleman away.  And I've got some stats that I could show you if you'd like me to expand on that.
    Ms. Herseth. That would be helpful if you could submit that for the record in part because I was going to -- I'm glad you clarified that because I think that there is a sense.  And Mr. Sodrel from Indiana was here earlier, a colleague, describing his experience.  And so if you're getting veterans -- let's say that it's been three, four, five years since their deployment versus those that are coming back from deployments in Iraq or Afghanistan and the types of jobs that they've got over there, combat related but also the service jobs that many of the National Guard and Reserve units are performing, that if we allowed this flexibility in this instance, that it would also allow, as we try to make sure that these new veterans are having that first good experience with how they can apply their GI Bill benefits, that this is one of their options.  That they can move into this especially when we've got trucking companies, because of the shortage, that are there to offer some sort of bridge to that an additional incentive.  I mean they're putting together not only their benefits but also these private enterprise subsidies to help get this certification.  That's why even though I understand the concerns about the piecemeal approach here, it does seem that this particular area is well-suited for the reasons you've described as well as the potential opportunity for men and women returning from Iraq and Afghanistan to take advantage of something that maybe hadn't considered before that would complement some of the services they were performing.  And again, I know the Chairman shares this concern of mine with our National Guard and Reservists that are returning home, especially in rural areas if jobs are hard to come by in those smaller communities.  So I appreciate if you would submit that additional information.  And thank you for your insights as well on your knowledge and familiarity with the President's high demand initiative and how that compares to the VA's categorization.  I appreciate it.  Thank you.
    Mr. Kuntz. Thank you.
    Mr. Boozman. Mr. Kuntz, given that experienced drivers are paid more, would ATA would be willing to work with DoD to develop a method to document experience that people received in the military?
    Mr. Kuntz. That's a question I don't know if I can handle.  Most truck driving companies, the competition itself kind of drives you to that point.
    What's happened just in the last six months, driver pay in our own company, we've had to raise it 10 or 12 percent on average in order to compete.  So I think it kind of takes care of itself.  Like a new driver today is making five or six thousand dollars a year more than he did a couple of years ago.  And so if someone comes out of the military, does well in school, shows he has experience and drives the truck well and performs well, just the law of supply and demand today will drive him up to an income level that will take care of that.
    If your question is are we -- can we move that guy straight into the driving force, if that was where your question was coming a little bit, he still needs that training because there are so many different things involved in commercial driving, logging and traffic and things that you can't by-step that process.
    Mr. Boozman. Have you got any other things?

    [No response]
 
    Well, thank you again.  We certainly appreciate the panel's testimony, and that was very, very insightful.  I note that the VA's comments about some provisions are in question and we certainly will work with them regarding their concerns and try and get things ironed out.  We really appreciate your input and look forward to working with you, again to alleviate those concerns.
    I also want to thank the Veterans Service Organizations for submitting statements for the record.  If there's nothing further, the hearing is adjourned.

    [Whereupon at 3:18 p.m., the Subcommittee was adjourned.]

</pre></body></html>
